        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Examination Report
Alamo Area Council of Governments
− Weatherization Assistance Program
Funds Provided by the American
Recovery and Reinvestment Act of
2009




OAS-RA-13-30                   September 2013
                                 Department of Energy
                                    Washington, DC 20585
                                       September 19, 2013


MEMORANDUM FOR THE ASSISTANT SECRETARY FOR ENERGY EFFICIENCY
               AND RENEWABLE ENERGY


FROM:                    Rickey R. Hass
                         Deputy Inspector General
                           for Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Examination Report on "Alamo Area Council of
                         Governments – Weatherization Assistance Program Funds Provided by
                         the American Recovery and Reinvestment Act of 2009"

BACKGROUND

The attached report presents the results of an examination of the Alamo Area Council of
Governments (Alamo) Weatherization Assistance Program (Weatherization Program) under the
American Recovery and Reinvestment Act of 2009 (Recovery Act). The Office of Inspector
General contracted with an independent certified public accounting firm, Lani Eko & Company,
CPAs, PLLC (Lani Eko), to express an opinion on Alamo's compliance with Federal and state
laws, regulations and program guidelines applicable to the Weatherization Program. Alamo is a
sub-recipient of the Department of Energy's (Department) Recovery Act Weatherization Program
funding for the State of Texas.

The Recovery Act was enacted to promote economic prosperity through job creation and
encourage investment in the Nation's energy future. As part of the Recovery Act, the
Weatherization Program received $5 billion to reduce energy consumption for low-income
households through energy efficient upgrades. The State of Texas received $327 million in
Weatherization Program Recovery Act grant funding, of which $15.5 million was allocated to
Alamo to weatherize approximately 3,000 homes. The State of Texas' Department of Housing
and Community Affairs was responsible for administering Weatherization Program grants,
including funds provided to Alamo.

RESULTS OF EXAMINATION

Lani Eko expressed the opinion that, except for the weaknesses described in its report,
Alamo complied in all material respects with the requirements and guidelines relative to the
Weatherization Program for the period April 1, 2009 through June 30, 2011.

However, the examination found that Alamo had:

      •   Falsified Weatherization Program records. A State of Texas review of the program,
          conducted at the request of the Alamo Executive Director, found that between March
                                                 2


           2010 and August 2010, the Alamo Weatherization Program's former Director
           instructed contractors to submit statements of work and/or invoices prior to completing
           weatherization work, had directed contractors and staff to backdate other documents,
           and falsely reported the units as being weatherized to the State.

       •   Incurred unallowable costs of $146,850 for forensic audits and reviews to determine
           the extent of the program's mismanagement.

       •   Improperly weatherized multi-family dwellings. Lani Eko noted instances in which a
           four-unit building and an eight-unit building were weatherized, even though
           eligibility requirements had not been met for those buildings. Lani Eko questioned
           the allowability of the $21,904 in costs incurred for the weatherization of those
           buildings.

The report makes recommendations to Alamo to improve its administration of the
Weatherization Program. Alamo provided responses that agreed that the former program
director had directed contractors and staff to falsify and hide documents; however, Alamo
disagreed that the program was mismanaged, did not have an adequate number of human
resources or technical expertise, and that the former director was not properly supervised.
Further, Alamo disagreed with the costs questioned in the report for the forensic audits, and
justified their expense as reasonable and prudent, and approved by the State of Texas. Alamo
also disagreed that it had improperly weatherized multi-family dwellings, and believed the costs
questioned were allowable expenses. Lani Eko considered Alamo's comments and made
changes to its report as appropriate.

RECOMMENDATION

We recommend that the Assistant Secretary for Energy Efficiency and Renewable Energy:

   •   Ensure appropriate action is taken by the State of Texas to improve administration of
       Recovery Act Weatherization Program funds at Alamo and resolve the costs questioned
       in this report.

DEPARTMENT COMMENTS AND AUDITOR RESPONSE

The Department concurred with the recommendation outlined in the report and has been working
with the state of Texas and Alamo to ensure that all corrective actions are implemented. The
Department agreed that the actions taken by Alamo in response to the falsification of records
finding were appropriate, and stated that it will follow up annually to ensure that training funds
are specifically budgeted for ethics training. Further, the Department concurred with Lani Eko's
assessment that the forensic auditing and investigation costs resulting from the falsification were
unallowable, and that multi-family units were improperly weatherized. The Department will
perform the necessary cost recovery to resolve the questioned costs by December 31, 2013. The
Department's comments are included in Attachment 2.

The State agreed with Lani Eko's conclusion that Alamo program reports had been falsified for
reporting purposes. Further, the State agreed that costs associated with forensic audits and
investigations were not eligible costs, and stated that it will collect the disallowed costs from
                                                  3


Alamo. In regard to the costs Lani Eko questioned for ineligible multi-family units, the State
disagreed that these were unallowable. State officials responded that based on communication
with the Department, they believed that a single unit could be weatherized based on client
eligibility and unit assessment at the time the four-unit buildings were weatherized. In regard to
the State's direction to Alamo on the 8-unit building, the State responded that it had not included
a vacant unit in its calculation, which resulted in a 71 percent eligibility rate, 5 percent over the
required rate. The State added that no funds were spent to weatherize the vacant unit. The
State's comments are included in their entirety in Attachment 3.

The comments provided by the Department were responsive to the recommendation that it work
with the State of Texas to improve administration of Recovery Act Weatherization Program
funds at Alamo and resolve the costs questioned in this report. In regard to the costs Lani Eko
questioned for ineligible multi-family units, we disagree with the State's claim that these were
allowable expenses. Based on our interpretation of the regulations, and as agreed to by the
Department in its response to this report, the units questioned in Lani Eko's report were not
eligible for weatherization. Further, we determined that the Departmental communication
referred to in the State's response did not provide tacit, blanket approval to weatherize individual
units in a four-unit building. We maintain that the regulations do not allow services to be
provided for a single unit in a multi-family dwelling when the building, as a whole, is not
eligible for services; nor do the regulations allow a vacant unit to be excluded from an eligibility
calculation.

EXAMINATION-LEVEL ATTESTATION

Lani Eko conducted its examination in accordance with attestation standards established by the
American Institute of Certified Public Accountants, as well as those additional standards
contained in Government Auditing Standards, issued by the Comptroller General of the United
States. The examination-level procedures included gaining an understanding of Alamo's policies
and procedures, and reviewing applicable Weatherization Program documentation. The
procedures also included an analysis of inspection results, records of corrective actions and re-
inspections of completed homes/units to ensure any failures were properly corrected. Finally, an
analysis of associated cost data was performed to test the appropriateness of payments.

The Office of Inspector General monitored the progress of the examination and reviewed the
report and related documentation. Our review disclosed no instances in which Lani Eko did not
comply, in all material respects, with the attestation requirements. Lani Eko is responsible for
the attached report and the conclusions expressed in the report.

Attachments

cc: Deputy Secretary
    Acting Under Secretary of Energy
    Chief of Staff
                                 Attachment 1




EXAMINATION REPORT OF
ALAMO AREA COUNCIL OF
GOVERNMENTS

WEATHERIZATION
ASSISTANCE PROGRAM
RECOVERY ACT FUNDS




Lani Eko & Company, CPAs, PLLC
                                                                                          Attachment 1 (continued)


                                            TABLE OF CONTENTS



INDEPENDENT ACCOUNTANT'S REPORT ..............................................................1


DESCRIPTION OF ALAMO AREA COUNCIL OF GOVERNMENTS
WEATHERIZATION ASSISTANCE PROGRAM .......................................................2


CLASSIFICATION OF FINDINGS ................................................................................3


SUMMARY OF FINDINGS .............................................................................................4


SCHEDULE OF FINDINGS ............................................................................................5


MANAGEMENT RESPONSE .......................................................................................13
                                                                       Attachment 1 (continued)




To the Inspector General, U.S. Department of Energy:

We have examined the American Recovery and Reinvestment Act (Recovery Act)
Weatherization Assistance Program (Weatherization Program) funds awarded by the State of
Texas to the Alamo Area Council of Governments for the period April 1, 2009 through June 30,
2011. Alamo is responsible for operating the Weatherization Program in compliance with
applicable Federal and state laws, regulations, and program guidelines. Our responsibility is to
express an opinion based on our examination.

Our examination was conducted in accordance with attestation standards established by the
American Institute of Certified Public Accountants and the U.S. Government Accountability
Office; and, accordingly, included examining, on a test basis, evidence supporting management's
compliance with relevant Weatherization Program Federal and State laws, regulations, and
program guidelines, and performing such other procedures as we considered necessary in the
circumstances. We believe that our examination provides a reasonable basis for our opinion.

Because of inherent limitations in any internal control structure or financial management system,
noncompliance due to error or fraud may occur and not be detected. Also, projections of any
evaluation of compliance to future periods are subject to the risk that the internal control
structure or financial management system may become inadequate because of changes in
conditions or that the degree of compliance with the policies and procedures may deteriorate.

In our opinion, except for the weaknesses described in Section IV of this report, Alamo
complied, in all material respects, with the aforementioned requirements and guidelines relative
to Weatherization Program funds awarded to Alamo for the period April 1, 2009 through June
30, 2011.




August 29, 2013
Alexandria, Virginia




                                                                                            1
                                                                       Attachment 1 (continued)


               SECTION I. Description of Alamo Area Council of Governments
                          Weatherization Assistance Program


The U.S. Department of Energy (Department) awarded $326,975,732 to the State of Texas to
allocate among its network of 44 local government agencies and various nonprofit organizations
participating in the Weatherization Assistance Program (Weatherization Program). From this
award, $15,519,918 was allocated to Alamo Area Council of Governments (Alamo) to assist
with the costs of weatherizing approximately 3,000 homes.

In Texas, the Weatherization Program is administered by the Texas Department of Housing and
Community Affairs (Texas). Alamo collaborates with Texas to operate the Weatherization
Program. In accordance with the terms of its agreement with Texas, Alamo is responsible for
determining applicant eligibility and taking the necessary steps to weatherize the homes of
eligible applicants. These steps include procurement of contractor services as well as conducting
home assessments and inspections.

The Weatherization Program helps eligible low-income households lower their energy costs by
increasing energy efficiency. Energy conservation and efficiency methods utilized by the
Weatherization Program include measures that reduce energy consumption and the cost of
maintenance for weatherized homes. In addition to the material improvements, energy
conservation education is provided to participants. For the period from April 1, 2009 through
June 30, 2011, Alamo reported that it had completed weatherization of 1,982 units under the
Weatherization Program.




                                                                                            2
                                                                      Attachment 1 (continued)


                            SECTION II. Classification of Findings



The findings in this report are classified as follows:

Material Weakness

For purposes of this engagement, a material weakness is a significant deficiency, or combination
of significant deficiencies, that results in more than a remote likelihood that a material
misstatement of the subject matter will not be prevented or detected.




                                                                                           3
                                                                     Attachment 1 (continued)


                           SECTION III. Summary of Findings


1. Falsification of Weatherization Program Records – Material Weakness

2. Dwelling Units Ineligible for Recovery Act Weatherization Services – Material
   Weakness




                                                                                        4
                                                                        Attachment 1 (continued)


                             SECTION IV. Schedule of Findings


Finding 1 – Falsification of Weatherization Program Records (Material Weakness)


Condition

During the course of our examination, we became aware of reports detailing that a former
program director of the Alamo Area Council of Government (Alamo) had mismanaged the
Weatherization Program by directing contractors and staff to falsify and hide documents. In
particular, at the request of an Alamo executive director in August 2010, the Texas Department
of Housing and Community Development (Texas) completed a review into allegations of
mismanagement at Alamo. Texas officials found that, between March 2010 and August 2010,
the Alamo Weatherization Program's former director instructed contractors to submit statements
of work and/or invoices prior to completing weatherization work, and had directed contractors
and Alamo staff to backdate other documents to disguise this practice. The review found that the
Alamo director then falsely reported the units as being weatherized to the State. According to
Department of Energy (Department) regulations, no dwelling units may be reported to the
Department as complete until all weatherization materials have been installed and a final
inspection has been performed. The director further instructed Alamo staff to remove
weatherization documents from files and to hide case files from Texas auditors during program
monitoring site visits. The director's actions clearly constituted an abuse of her authority. The
Government Accountability Office's Government Auditing Standards states that "Abuse involves
behavior that is deficient or improper when compared with behavior that a prudent person would
consider reasonable and necessary business practices given the facts and circumstances…"

While the backdated statements of work and invoices were used to support milestone data
reported to the State, the reviewers did not identify instances in which funds were reimbursed for
uncompleted units, nor did we identify any such instances during our examination. Texas
reimbursed Alamo for specific units after it had received certain certifications and documents
denoting that the weatherization work had been correctly completed. Required documents
included building weatherization reports, certifications by housing inspectors and the
homeowners' acknowledgements that services were received. We did not identify any instances
in which Recovery Act funds were misappropriated or contractors paid before final inspections
were completed and building weatherization reports were issued. Further, independent
investigators engaged by Alamo's Board of Directors also did not identify any instances of
misappropriation of Recovery Act funds. In addition to contracting with forensic analysts to
determine the extent of the mismanagement, Alamo officials removed the Weatherization
Program director from management of the program in August 2010, and referred the matter to
the Bexar County District Attorney, which declined to prosecute.

While we believe that forensic reviews conducted to determine the extent and effect of this
mismanagement were warranted, we determined that costs incurred by the offending agency
were not allowable Recovery Act costs. In particular, Alamo expended $146,850 of its Recovery
Act funds to investigate the misdeeds of its own Weatherization Program director. Alamo
                                                                                             5
                                                                         Attachment 1 (continued)


                         SECTION IV. Schedule of Findings (Cont.)

provided the official request letter dated October 19, 2010, as evidence of Texas' authorization to
use Recovery Act funds allocated for administrative expenses. The Code of Federal Regulations
(CFR) specifies that costs for audits are allowable only when related to periodic financial audits
of Weatherization Programs. Further, the Office of Management and Budget's (OMB) Circular
No. A-87, Cost Principles for State, Local, and Indian Tribal Governments, states that a cost is
reasonable if, in its nature or amount, it does not exceed that which would be incurred by a
prudent person under the circumstances prevailing at the time the decision was made to incur the
costs. In determining the reasonableness of a given cost, consideration shall be given to whether
the individuals concerned acted with prudence in the circumstances, considering their
responsibilities to the organization, its members, employees, and clients, the public at large, and
the Federal Government. We determined that in falsifying records, the former Program Director
did not act in a prudent manner, and therefore, the costs arising from these actions are not an
appropriate use of Recovery Act funds. Specifically, we are questioning the following costs
related to the investigation into the Weatherization Program mismanagement:

       $114,075 for the services of an Independent Public Accountant engaged to provide a
        forensic audit of the Weatherization Program files;

        $24,435 for the services of a consulting firm engaged to perform computer-related
        forensic services; and,

       $8,340 for the services of a private investigator engaged to investigate allegations that
        Alamo mishandled the Weatherization Program.

Cause

According to an independent investigation conducted at the Alamo Board of Directors' request,
the records were falsified to give the appearance that more units had been weatherized because
Alamo was in danger of not meeting established milestones for completed units. Under the
Weatherization Program grant agreement with Alamo, Texas established milestones for
completed weatherized homes and expenditures throughout the grant period. For example,
Alamo was expected to weatherize 627 units and expend 15 percent of the grant award by June
30, 2010. Texas could have deobligated grant funds if Alamo had failed to meet the expected
minimum milestones established in the grant agreement.

The mismanagement of the Weatherization Program may also be attributed to the following:

   •    Alamo did not have the adequate number of human resources or the technical expertise to
        properly complete weatherization of 3,000 homes in the timeframe required by Texas;




                                                                                              6
                                                                          Attachment 1 (continued)


                            SECTION IV. Schedule of Findings (Cont.)

      •   Contractor home assessors contracted to address the increased workload were not
          properly trained to conduct unit assessments thereby resulting in delays in processing
          applications; and,

      •   The Weatherization Program director was not properly supervised. According to
          statements given to an independent investigator, the immediate supervisor stated that she
          was responsible for oversight of five departments, including the Housing and
          Weatherization Department, and at the same time continued oversight of two high level
          positions in other departments due to vacancies.

In addition, the deficiencies relating to compliance with the allowable cost standards and
regulations for the reimbursement of Recovery Act funds may be attributed to lack of
understanding of Federal cost principles and Recovery Act Weatherization Program grant
guidelines regarding allowable costs.


Effect

Erroneous and misleading data was used by Texas and the Department of Energy to measure
Weatherization Program performance. Also, there was an elevated risk of fraud, waste and
improper payments to the contractors. Additionally, Recovery Act funds of $146,850 were used
to reimburse Alamo for unallowable expenditures, reducing the amount of funds available for
eligible applicants and/or dwelling units.


Recommendation

We recommend that Alamo:

1.1       Develop and implement annual ethics training for all Alamo staff;

1.2       Develop and implement a hotline for Alamo staff, management and contractors to report
          improper or deficient Weatherization Program practices;

1.3       Designate Alamo senior staff as the second level reviewer to examine all Weatherization
          Program performance data submitted to Texas; and,

1.4       Work with Texas and the Department's Contracting Officer to resolve the costs questioned
          in this finding and determine if refunds to the Department are necessary.




                                                                                                   7
                                                                          Attachment 1 (continued)


                          SECTION IV. Schedule of Findings (Cont.)


Management Response

While Alamo management did not dispute that its former program director had directed
contractors and staff to falsify and hide documents, management did not agree that the program
was mismanaged, did not have an adequate number of human resources or technical expertise,
and that the former director was not properly supervised. Management contends that the
program did have sufficient staffing during the timeframe of our examination, and had 30 years
of weatherization experience, and that the staff hired in 2010 brought additional technical
experience that enhanced the skill set. Further, management responded that the director's
supervisor was not holding two high level positions in other departments as stated in our report,
and this supervisor, in fact, had uncovered the director's "deviations from proper procedures."
Management further stated the program as a whole was managed very well with the exception of
a narrow set of actions orchestrated by the former program director.

In regard to our recommendations, management concurred with recommendations 1.1, 1.2 and
1.3. Management responded that it had implemented a formal ethics training which was required
to be presented annually to all Alamo staff members. Additionally, management stated that it
distributed documents outlining fraud, waste and abuse and a Recovery Act Hotline number to
all contractors, subcontractors and agency personnel. Management provided this documentation
to the auditors with its response. Management further stated that Alamo's monthly performance
and expenditure reports are subject to a multi-level review culminating with a controller or chief
financial officer review.

In response to Recommendation 1.4, management disagreed that the forensic audit and
investigation costs were unallowable, as the costs had been authorized and reimbursed by Texas,
and were reasonable and prudent to protect Federal assets. Further, Alamo stated that Federal
regulations stated that costs for periodic financial audits were allowable, and that there was no
specific language stating that costs related to audits performed otherwise were unallowable.


Auditor Response

We disagree with Alamo's assertions that the program was well managed and adequately staffed.
In particular, based on our observations and the findings of investigators looking into the
program, we determined that numerous high level managers at Alamo had been concerned with
the former director's actions prior to discovering the falsification of records, especially in regard
to staffing levels. In statements to independent investigators, Alamo's Executive Director,
Deputy Executive Director, Quality Assurance Director, as well as other Alamo staff each stated
that staffing level concerns were raised numerous times as far back as the fall of 2009. In
addition, in the November 2010 corrective action plan prepared in response to the
mismanagement, the Alamo Board of Directors specifically included the hiring of additional
staff as a corrective action. In regard to management's response that the director was not
properly supervised, we noted that the supervisor herself expressed to the investigators that she
                                                                                                8
                                                                     Attachment 1 (continued)


                        SECTION IV. Schedule of Findings (Cont.)

was responsible for oversight of five departments, and at the same time continued oversight of
two high level positions in other departments due to vacancies. Further, we noted that Alamo's
Executive Director had been concerned with the former director's "inflexible management style"
and that she was somewhat "resistant" to reporting to the supervisor.

With respect to the recommendations, management's actions to Recommendations 1.1, 1.2, and
1.3 are responsive. In regard to Recommendation 1.4, we maintain that the costs for forensic
audits and investigations are an unallowable expense, regardless of whether they were
erroneously approved and reimbursed by Texas. We noted that these costs were not incurred for
periodic financial audits, but rather for investigation and forensic reviews into specific
allegations of falsification of records, the cost of which should not be borne by the program.
We noted no stipulation in the Federal regulations which would deem this cost allowable, and we
maintain that this is not a reasonable Recovery Act expense.




                                                                                          9
                                                                         Attachment 1 (continued)


                          SECTION IV. Schedule of Findings (Cont.)


Finding 2 - Dwelling Units Ineligible for Recovery Act Weatherization Services (Material
            Weakness)

Condition

We determined that Alamo weatherized multi-family dwelling units with Recovery Act
Weatherization Program grant funds which were ineligible per the Code of Federal Regulations
(CFR). Under 10 CFR 440.22, a subgrantee may weatherize a building containing rental
dwelling units if not less than 66 percent (50 percent for duplexes and 4-unit buildings) of the
building's dwelling units are eligible for weatherization assistance or will become eligible within
180 days under a Federal, State, or local government program. However, in our review, we
noted that Alamo weatherized units even though the appropriate ratio of eligibility had not been
obtained. Specifically, we noted that:

   •     Alamo weatherized a unit in the 4-unit Babcock North 21 building even though the
         building did not meet the 50 percent eligibility requirement for a 4-unit building.
         Specifically, only 1 unit, or 25 percent, met eligibility requirements, rendering the
         building ineligible. The cost to weatherize the ineligible unit was $1,708.

   •     Alamo weatherized the 8-unit La Providencia Building 7 Apartments, despite the fact that
         less than 66 percent of the units met requirements. Specifically, only 5 of the units were
         eligible, or less than 66 percent. As a result, none of the units in this building should
         have been weatherized with Recovery Act funds. The cost to weatherize the ineligible
         building was $20,196.


Cause

The deficiencies relating to compliance with regulations for weatherizing multi-family dwellings
may be attributed to lack of understanding of Federal cost regulations and from erroneous
instructions provided to Alamo by Texas. In particular, Alamo believed that it could weatherize
a single unit in the 4-unit building if that unit's occupant met eligibility requirements. In regard
to an 8-unit building, Texas provided electronic direction to Alamo that 62 percent, or 5 out of 8
units, would deem that building eligible for weatherization, even though it was below the
66 percent requirement.


Effect

Recovery Act funds totaling $21,904 were used to provide weatherization services to ineligible
multi-family buildings. This reduced the amount of Recovery Act funds available for eligible
dwelling units.

                                                                                              10
                                                                        Attachment 1 (continued)


                         SECTION IV. Schedule of Findings (Cont.)


Recommendations

We recommend that Alamo:

2.1    Reimburse Texas the amount of $21,904, the amount spent to weatherize ineligible
       dwelling units; and,

2.2    Develop and implement procedures to ensure that only eligible units are weatherized.


Management Response

Management did not agree with our findings and questioned costs. In regard to the Babcock
North Apartment, management agreed that the building as a whole was ineligible, that only one
occupant was eligible, and that one occupant received services. However, Alamo management
interpreted the Federal regulations to mean that if one occupant is eligible for weatherization
services in a multi-family dwelling, then that occupant's unit could be weatherized, as compared
to the building as a whole. With respect to La Providencia's 8-unit building which was
weatherized despite being below 66 percent eligible, management stated that it had sought
direction from its Texas program manager, who had, in response, indicated that if 5-units in an 8-
unit building were eligible, then the building would qualify for weatherization.

In addition, management provided responses and documentation to support other costs
questioned in an earlier version of the report, and not shown here.

In regard to the recommendations, management asked that Recommendation 2.1 be removed
from our report based on the additional documentation. In regard to Recommendation 2.2,
management stated that it had implemented standard operating procedures which ensure that
units and multi-family buildings are eligible to receive weatherization services.

Auditor Response

We disagree with management's interpretation of Federal regulations in regard to the Babcock
North building. The regulations state that to weatherize a multi-family unit, 50 percent of the
occupants of a 4-unit building must meet eligibility requirements. There is no provision in the
requirements to allow for a single unit in a multi-family dwelling to receive services. Further,
we maintain that La Providencia's Building 7 had not met the appropriate eligibility
requirements. In particular, the regulations state that "not less than 66 percent" of the units in
multi-family dwelling. In this case, less than 66 percent were eligible. While we stated in our
report that Texas had mistakenly directed Alamo in this regard, erroneous guidance by Texas
does not deem these costs allowable.


                                                                                             11
                                                                    Attachment 1 (continued)


                        SECTION IV. Schedule of Findings (Cont.)

In regard to additional information and documentation provided by management as a response to
our draft report, we revised our report accordingly. However, we must note that while we had
discussed our report previously with management, the documentation had not been provided at
that time. Furthermore, this documentation was not available at the time of our review.

Based on our response above, Recommendation 2.1 will remain in the report, and we consider
management's actions to be non-responsive. In regard to Recommendation 2.2, management's
actions are responsive.




                                                                                        12
                             Attachment 1 (continued)



SECTION V. Management Response




                                                13
                                     Attachment 1 (continued)


SECTION V. Management Response (Cont.)




                                                        14
                                     Attachment 1 (continued)


SECTION V. Management Response (Cont.)




                                                        15
                                     Attachment 1 (continued)


SECTION V. Management Response (Cont.)




                                                        16
                      Attachment 2


DEPARTMENT COMMENTS




       Page 17
          Attachment 2 (continued)




Page 17
          Attachment 2 (continued)




Page 17
                          Attachment 3



STATE OF TEXAS COMMENTS




         Page 18
          Attachment 3 (continued)




Page 19
                                                                 IG Report No. OAS-RA-13-30


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                                 Date

Telephone                                            Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
Internet at the following address:

               U.S. Department of Energy Office of Inspector General Home Page
                                      http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
